                                                                                            Office ofInspector General

                                                                                            u.s. Department of Homeland Security
                                                                                            Central Regional Office
                                                                                            Office of Emergency Management Oversight
                                                                                            3900 Karina Street, Room 224
                                                                                            Denton, Texas 76208


                                                                                           Homeland
                                                                                           Security
                                                      March 31, 2009


MEMORANDUM FOR:                         Tony Russell, Acting Director
                                        FEMA Louisiana Transitional Recovery Office

                                        0Mkor:~
FROM:                                   Tonda L. Hadley, Director
                                        Central Regional Office

SUBJECT:                                Louisiana Superdome Sheltering and Repair
                                        FEMA Disaster Number 1603-DR-LA
                                        Public Assistance Identification Number 000-UXL4N-00
                                        Audit Report Number DD-09-06

We audited public assistance funds awarded to the Office of Facility Planning and Control (OFPC),
State of Louisiana, for sheltering and repair measures in the Louisiana Superdome associated with
Hurricane Katrina. The objective ofthe audit was to determine whether OFPC expended and
accounted for Federal Emergency Management Agency (FEMA) funds according to federal
regulations and FEMA guidelines.

As of May 2008, the Governor's Office of Homeland Security and Emergency Preparedness
(GOHSEP), a FEMA grantee, awarded OFPC $172.7 million. The award provided 100% funding
for 16 large projects and 4 small projects. l Our audit covered the period August 28,2005, through
July 24,2008, and included 15 projects totaling $172.1 million (see Exhibit). As of the cut-off date
of our audit, repairs were in various stages of completion; and, GOHSEP had disbursed $130.4
million to OFPC.

We conducted this performance audit under the authority of the Inspector General Act of1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.

We interviewed FEMA, GOHSEP, and OFPC officials; and reviewedjudgmentally selected samples
(generally based on dollar value) of cost documentation. We also reviewed OFPC's policies and
procedures for bidding and awarding contracts. We did not assess the adequacy of OFPC's internal


I   Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
controls applicable to grant activities because it was not necessary to accomplish our audit objective.
We did, however, gain an understanding of OFPC's method of accounting for disaster-related costs.


                                          BACKGROUND

The Louisiana Superdome is a multi-sport and exposition facility located in New Orleans, Louisiana.
The Superdome opened on August 3, 1975, and is one of the largest fixed-dome structures in the
world. The facility stands on 52 acres near the Central Business District, and its roof covers an area
of9.7 acres.




On the morning of August 28, 2005, the Louisiana Superdome opened as one of the "shelters oflast
resort" from Hurricane Katrina. The Superdome housed up to 25,000 evacuees. Within hours of
Katrina's landfall, the City of New Orleans ordered the mandatory evacuation of all citizens. Due to
roof damage caused by wind-driven rain and flooding throughout the City, the Governor of
Louisiana signed an executive order authorizing additional transportation resources that facilitated
the evacuation of the Superdome, beginning on Tuesday, August 30. The Superdome was fully
evacuated by September 4,2005. On December 9,2005, the Governor signed another executive
order specifically for the Superdome. The order relaxed state purchasing rules to "fast-track"
essential Superdome repairs for completion by September 8, 2006, before the first home game of the
New Orleans Saints.

The repairs and improvements to the Superdome required a contract manager and an architectural
and design team. The contract manager directly monitored or coordinated 45 contractors and
subcontractors to complete over 140 separate tasks in major categories such as mold and bacteria,
roofing, scoreboards and graphics, conveyances, parking garage, fixed stadium seating, interior
furniture and fixtures packages, food service equipment, and synthetic turf. The contract manager
and OFPC tracked eligible FEMA-funded repairs. They also tracked state-funded repairs and
improvements that were not FEMA eligible.




                                                   2

                                     RESULTS OF AUDIT

OFPC expended and accounted for FEMA funds according to federal regulations and FEMA
guidelines. OFPC properly accounted for costs on a project-by-project basis, and provided adequate
documentation to support claimed contractor expenses.


             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with FEMA and GOHSEP officials on March 9, 2009, and with
OFPC officials on March 18, 2009. These officials agreed with our audit results. Because the audit
did not identify issues requiring further action from FEMA, we consider this audit closed. Should
you have questions concerning this report, please contact me or Paige Hamrick, Audit Manager, at
(940) 891-8900.


Cc:           Regional Administrator, FEMA Region VI
              Audit Liaison, FEMA Region VI
              Audit Liaison, FEMA Louisiana Transitional Recovery Office
              Audit Liaison, FEMA (Job Code DG8C07)
              Audit Liaison, Gulf Coast Recovery Office




                                                3

                                                    EXHIBIT


           Schedule of Audited Projects

    Louisiana Superdome Sheltering and Repair

      FEMA Disaster Number 1603-DR-LA



    Project          Award            Claimed
    Number           Amount           Amount*
    1262        $     2,630,484   $     2,576,248
    2205            144,736,523       106,577,587
    2376              5,011,496         5,027,799
    2526              3,577,105         3,564,900
   10307                332,849            19,492
   10648                 93,122            93,122
   11047              5,549,796         2,498,223
   11822              6,483,532         5,855,707
   17166                821,000           795,374
   17167              1,160,756         1,197,996
   17233                565,630           510,976
   17279                 20,000            20,075
   17348                  3,667             4,860
   17349                 64,130            57,933
   17352              1,087,500         1,091,578
     Totals     $172,137.590      $129,891.870

* As of July 24, 2008.




                           4

